Nos. 20-306 & 20-5649
IN THE

Supreme Court of the United States
ROBERT OLAN AND THEODORE HUBER,
Petitioners,
v.
UNITED STATES,
Respondent.
DAVID BLASZCZAK,
Petitioner,
v.
UNITED STATES,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Peter G. Neiman, a member of the
bar of this Court, certify that the accompanying Brief for National Association of
Criminal Defense Lawyers as Amicus Curiae in Support of Petitioners contains 4,107
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Executed on October 9, 2020.

/s/ Peter G. Neiman
PETER G. NEIMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
peter.neiman@wilmerhale.com

